AUDIT OF THE MISSISSIPPI DEPARTMENT
  OF TRANSPORTATION’S AWARD OF
   SELECTED HURRICANE KATRINA
  EMERGENCY REPAIR CONTRACTS

        Federal Highway Administration

         Report Number: MH-2006-065
        Date Issued: September 6, 2006
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the Mississippi             Date:    September 6, 2006
           Department of Transportation’s Award of Selected
           Hurricane Katrina Emergency Repair Contracts
           Report No. MH-2006-065
  From:    Kurt W. Hyde                                            Reply to
                                                                   Attn. of:   JA-40
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Highway Administrator


           This final report presents the results of our audit of the Mississippi Department of
           Transportation’s (MDOT) management of the award of selected Hurricane Katrina
           emergency repair Federal-aid contracts. It is important to note the extraordinary
           circumstances involved in awarding contracts in the immediate aftermath of
           Hurricane Katrina, which devastated many of Mississippi’s highways and bridges.
           A basic tenet of Federal-aid contracting is that construction contracts are normally
           awarded competitively to the contractor that submits the lowest responsive bid.
           Noncompetitive construction contracting or negotiated contracts may be used if an
           emergency exists and if time is a critical factor, as it was for residents and public
           safety personnel who experienced the catastrophic conditions caused by Hurricane
           Katrina.

           This audit covered 13 emergency repair contracts that MDOT awarded in 2005—8
           in September, 4 in October, and 1 in early November. These contracts were either
           competitive or negotiated (noncompetitive) and were awarded to repair damaged
           bridges and highways in an effort to facilitate the transportation of vital supplies
           and people to and from hurricane-ravaged areas. The highways and bridges most
           affected by Hurricane Katrina included Interstates 10 and 110 (also known as I-10
           and I-110) and United States Highway 90 (U.S. 90) (see Figure 1 on page 2).
                                                                                                                     2


Figure 1. Damaged Highways in the Mississippi Gulf Coast Area




         Source: State of Mississippi

The objectives of our audit were to determine whether MDOT’s emergency repair
contract award processes were consistent with applicable Federal and State
procurement requirements, and whether prices received were fair and reasonable
under the emergency conditions that resulted from Hurricane Katrina. Our audit
was based on requirements contained in the Mississippi procurement statutes;
MDOT’s procurement policy; Code of Federal Regulations (CFR) 23, Highways;
and related Federal procurement guidance.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and we performed such tests as we considered necessary to detect
fraud. Exhibit A contains details on the objectives, scope, and methodology we
used in conducting this audit. Exhibit B lists the activities we visited or contacted.

RESULTS IN BRIEF
The transportation infrastructure damages resulting from Hurricane Katrina were
unprecedented in Mississippi. In the aftermath of this natural disaster, MDOT
awarded 13 emergency highway and bridge repair contracts priced at $1 million or
more (see Exhibit C), among other contracts. MDOT used two different
procurement methods to award these contracts—six were competitively bid1
totaling $20.3 million and seven were negotiated (sole-sourced) totaling
$24.8 million. The six competitively bid contracts were awarded using an


1
    Competitively-bid contracts rely on multiple bidders competing for construction work based on a well-defined scope.
    The lowest responsive bid is used to establish the price of the contract award. This type of award has limited risk
    provided a sufficient number of qualified contractors are available to bid on and perform the work and the lowest
    responsive bidder is selected.
                                                                                                                         3


expedited award process. Of the seven negotiated contracts, five were cost-plus 2
totaling $20.2 million and two were lump-sum 3 totaling $4.6 million. The total
value of these 13 contracts was $45.1 million (see Figure 2).

       Figure 2. MDOT Issued 13 Emergency Highway and Bridge
                 Repair Contracts Totaling $45.1 million

                  Six Competitively Bid Contracts                     Seven Negotiated Contracts

                Project                 Contract Amount           Project                 Contract Amount
                                         ($ in millions)                                   ($ in millions)
                                                                  Cost-Plus
                Pascagoula I-10 Bridge               $5.2          U.S. 90 Eastbound                   $7.0
                   (Wallace)                                          (Stockstill)
                I-10 Lane Widening                   $2.0          U.S. 90 Eastbound                   $7.0
                   (Warren)                                           (Warren)
                U.S. 90 Westbound                    $2.6          U.S. 90 Eastbound                   $4.0
                   (Stockstill)                                       (Mallette)
                U.S. 90 Westbound                    $3.7          Casino Barge                        $1.2
                   (Warren)                                           (Parnell)
                U.S. 90 Westbound                    $4.9          Bridge Inspections                  $1.0
                   (Mallette)                                         (Volkert)
                Henderson Point Bridge               $1.9          Subtotal                           $20.2
                   (Hill Brothers)
                                                                  Lump-Sum
                                                                   I-110 Bridge                        $2.5
                                                                      (Wallace)
                                                                   Bay St. Louis                       $2.1
                                                                      (ESCO Marine)
                                                                   Subtotal                            $4.6
                Total                               $20.3         Total                               $24.8


              Source: MDOT

Notwithstanding the catastrophic conditions created by Hurricane Katrina, we
found that the Federal Highway Administration (FHWA) and MDOT officials
worked together to ensure MDOT’s emergency repair contract award processes
were generally consistent with Federal and State procurement requirements.
However, we also found that the lack of standard construction contract provisions
caused MDOT to award some contracts without the assurance of fair and
reasonable prices. Further, FHWA should strengthen its Emergency Relief


2
    Cost-plus contracts, based on actual costs plus a reasonable profit, are commonly used when performing construction
    work where the full scope of work and cost estimate cannot be easily established beforehand. Contractors are
    expected to provide documentation that supports the actual cost of the work performed. Actual costs generally
    include labor, materials, equipment, insurance, subcontractors, and home office overhead. In addition to the
    payment of the cost of the work, the contractor and subcontractors are entitled to an agreed upon fee or profit.
3
    Lump-sum contracts are priced up front, which require a well-defined description of the construction work to be
    performed and a full and detailed analysis of the cost estimate to establish a price before the initiation of work. This
    type of award involves significant risk, especially if a full and complete analysis of the estimated cost is not done
    before the award.
                                                                                                                    4


Manual and the related Federal regulations to better assist states in awarding
emergency repair contracts.

Specifically, we found that:

• Six competitively bid contracts totaling $20.3 million met Federal and
  State procurement requirements, but Hurricane Katrina’s effects inflated
  the costs. We found that the six competitively bid contracts were issued
  generally in accordance with Federal and Mississippi procurement
  requirements. This type of contracting is the most preferred method and is
  required by Federal and State procurement laws for non-emergency
  procurements. Although we found the six emergency repair awards to be
  appropriate given the circumstances and many unknown risk factors facing the
  contractors, the winning bids were above historical or pre-Katrina prices. 4

      Although the six competitively bid contract prices were higher than
      experienced before Hurricane Katrina, MDOT and FHWA officials agreed to
      them because of the exigent circumstances and the fact that the contracts were
      competitively bid. These competitive procurements included from two to five
      bids per contract, with the lowest responsive bidder in all cases receiving the
      contract.

• Five negotiated (sole-sourced), cost-plus contract awards totaling
  $20.2 million were generally consistent with Federal and State
  procurement requirements, but two resulted in equipment billing rates
  that were significantly higher than rates based on an alternative pricing
  methodology used in the industry. These types of awards are appropriate
  provided the state conducts a thorough cost/price analysis before work begins
  and conducts a post-payment review to ensure the contractor billed only actual
  costs and that those costs were reasonable. Normally, these contracts also
  include a requirement that costs, especially costs for heavy equipment, not
  exceed reasonable rates based on ownership and operating costs. With those
  provisions in place, MDOT would have reasonable assurance that it paid a fair
  price for the services received. However, as discussed below, MDOT did not
  have this assurance because two of its negotiated, cost-plus emergency repair
  contracts lacked a provision for an alternative equipment pricing methodology.

      We noted that two of the cost-plus contracts for U.S. 90 repairs included
      $1.7 million in subcontractor charges for storm drain cleaning equipment that
      were higher than what may be considered reasonable. On both contracts, a
4
    Pre-Katrina prices represent estimates based on historical unit prices that were included in highway construction
    contracts competitively awarded by MDOT up to 3 years prior to Hurricane Katrina or pricing data from other states
    when historical prices were not available.
                                                                                                                       5


       subcontractor billed MDOT’s contractors (Warren Paving, Inc. and Huey
       Stockstill, Inc.) for specialized, high-powered storm drain cleaning
       equipment—known as a Sewer Hog—at the rate of $935 per hour. 5 These
       MDOT contracts included a standard provision to establish a maximum
       equipment rate, which required the contractors to use a standard construction
       industry publication, called the Rental Rate Blue Book 6 (Blue Book), to
       determine reasonable prices for heavy equipment. However, because the
       Sewer Hog was not listed in the Blue Book, MDOT officials could not use the
       Blue Book price to verify the appropriateness of the rates billed. The contract
       also did not include a provision for an alternative equipment pricing
       methodology, which is normally included in MDOT’s construction contracts.
       This provision would have allowed the use of a methodology developed by the
       U.S. Army Corps of Engineers to establish a reasonable ownership and
       operating rate for specialized equipment, such as the Sewer Hog.

       We applied the Army Corps of Engineers’ methodology to calculate ownership
       and operating costs for the Sewer Hog. Under this methodology, the rental rate
       for this specialized equipment should have been $163 per hour. This hourly
       rental rate included an additional 15 percent for the contractors’ increased
       operating expenses, as specified in MDOT’s emergency repair contract
       provisions. If MDOT had included the alternative pricing methodology in its
       cost-plus contracts, it would have had a basis for paying only $294,000 for the
       Sewer Hog—about $1.4 million less than the $1.7 million the contractors
       charged and MDOT paid.

       The significant cost difference demonstrates that MDOT should have taken
       additional steps to assure the fairness and reasonableness of equipment billing
       rates for the Sewer Hog. Although other standard sewer cleaning equipment
       was used on U.S. 90, MDOT engineers viewed the Sewer Hog as the most
       efficient and effective option for completing certain segments of the work in a
       timely manner. The fact that the contractors billed MDOT a rate almost six
       times higher than the rate we computed using the Army Corps of Engineers’
       methodology also raises the question of whether the subcontractor’s billing
       rates were reasonable even given the dire post-Katrina conditions.

       Given that MDOT paid about $1.4 million more than what may be considered
       reasonable for Sewer Hog equipment costs, FHWA needs to determine
       whether there is any legal recourse to recover these costs. FHWA should also
5
    To compute the $935 hourly billing rate for the Sewer Hog (a patented, high-speed extraction system), the
     subcontractor added a 15 percent markup of $122.50 to the $812.50 billing rate received from the lower-tier
     subcontractor.
6
    The Rental Rate Blue Book, an EquipmentWatch product, is a construction industry publication that is commonly
     used to determine reasonable billing rates to reimburse contractors for the use of specialized or heavy construction
     equipment, based on their ownership and operating costs.
                                                                                                            6


       limit its participation to the amount that it determines is fair and reasonable
       under the emergency circumstances.

• Two negotiated, lump-sum contracts totaling $4.6 million were awarded
  without the assurance of fair and reasonable prices—one was significantly
  overpriced. A negotiated (sole-sourced), lump-sum contract establishes a
  fixed price at the time the contract is awarded. This type of contract involves
  significant risk to the State government, especially when the award official has
  not conducted a full and thorough cost/price analysis. This procurement
  method is an extremely risky contracting approach because there is no
  competition to assure that the price was fair and reasonable at the time of the
  award. Given this risk, lump-sum contracting should be used only in
  extraordinary situations. Further, even if there is not enough time to
  competitively bid a contract, a negotiated, cost-plus contract provides more
  assurance that prices will be reasonably related to costs incurred than a
  negotiated, lump-sum contract.

       When a negotiated, lump-sum contract is used during extraordinary
       circumstances, the State government needs to conduct a thorough cost/price
       analysis to assure that the price is reasonable before award. For the two
       negotiated, lump-sum contracts awarded for work on highway bridges
       damaged by Hurricane Katrina, MDOT should have, but did not: (1) prepare
       an independent cost estimate, (2) request a detailed cost estimate from the
       contractor, and (3) document in a memorandum of negotiation how the price
       was established.

       Given that MDOT used cost-plus or competitive contracts to quickly repair
       other roads and bridges damaged by Katrina, it is unclear why a negotiated,
       lump-sum contract—a high-risk approach—was used to award emergency
       repair contracts for bridge work on I-110 and the demolition of bascule leaves 7
       at the Bay St. Louis Bridge. In both cases, senior MDOT officials invited an
       individual contractor to bid on the work required for each contract and
       negotiated the price with the contractor directly, bypassing the MDOT
       procurement officials who are normally involved in awarding highway
       contracts. Our analysis showed that the contract price was reasonable for the
       demolition of the bascule leaves at the Bay St. Louis Bridge. However, the
       price was not reasonable for the repair of the I-110 Bridge.

       We found that the negotiated, lump-sum emergency repair contract for the I-
       110 Bridge was significantly overpriced. MDOT awarded a $2.487 million
       lump-sum contract to T.L. Wallace Construction, Inc., (T.L. Wallace) to shore

7
    Bascule leaves are the moveable spans or sections of a drawbridge that swing upward for boat traffic.
                                                                                  7


   up a single pier on the I-110 Bridge. The FHWA Division Office, which had
   expected MDOT to award a cost-plus contract rather than a lump-sum contract,
   estimated that the contract should have cost about $400,000. Given the
   emergency circumstances, FHWA officials concluded that a hurricane
   adjustment was needed, and lacking a quantifiable basis to estimate a fair price,
   they used their professional judgment to determine that the cost could have
   doubled in this case to $800,000.

   Accordingly, FHWA informed MDOT that Federal participation in the
   T.L. Wallace contract would be limited to $800,000. Our analysis of the
   T.L. Wallace contract also supported FHWA’s determination that the
   $2.487 million award was overpriced.           In view of the emergency
   circumstances, we agree with FHWA’s decision to limit Federal participation
   to no more than $800,000 and, therefore, are not making a recommendation.

• FHWA’s Emergency Relief Manual (Manual) and related Federal
  regulations need to be strengthened to better assist MDOT and other
  states in awarding emergency repair contracts. We found that FHWA’s
  Manual and related Federal regulations provide only limited guidance to states
  that need to award emergency repair highway construction contracts.
  Specifically, the Manual does not:

   o prioritize each of the contracting methods available to states from the
     lowest risk (most preferred) to extremely high-risk (least preferred) as
     follows—competitively bid, negotiated, cost-plus and negotiated, lump-
     sum contracts.

   o identify the risks associated with each contracting method and develop
     essential criteria that state officials should consider before making
     emergency repair award decisions.

   o advise states to limit the use of high-risk negotiated, lump-sum contracts
     and first consider less risky negotiated cost-plus contracts, if competition
     can not be reasonably developed.

   o advise states of the procurement procedures that should be followed in
     order for FHWA to consider negotiated contracts eligible for Federal
     reimbursements.

   o encourage states to use pre-negotiated emergency contracts that would
     allow state transportation agencies to issue task orders immediately in
     response to natural disasters and other unexpected occurrences.
                                                                                                                  8


FINDINGS

Six Competitively Bid Contracts Totaling $20.3 Million Met Federal
and State Procurement Requirements, but Hurricane Katrina’s Effects
Inflated the Costs.
We found that the six competitively bid contract awards were issued generally in
accordance with Federal and Mississippi procurement requirements, but these
award prices were higher than experienced before Hurricane Katrina. In awarding
these emergency repair contracts, FHWA Division Office and MDOT officials
worked together to adhere to both Federal and State laws and requirements for
competitively bidding and issuing contracts for construction projects. 8 These
requirements are based on the fundamental principles of fairness and
reasonableness to obtain the best contract prices for services acquired with
taxpayer dollars. They provide basic guidance on issuing and advertising
proposals, bid opening and tabulating procedures, reviewing and awarding
contracts, and Federal concurrence with awards.

We also found that these six competitively bid contract awards were provided to
the lowest responsive bidders and the ultimate prices were fair and reasonable,
given the exigent circumstances and many unknown risk factors facing the
contractors. Due to the extreme devastation to the Gulf Coast region’s
transportation infrastructure, MDOT quickly acted to execute essential emergency
repair contracts and accomplished the task using the competitively bid awards.
This type of contracting is the most preferred method and is routinely required by
Federal and state procurement laws for non-emergency procurements.




8
    These requirements are specified in 23 CFR 635, Sections 112 through 115; Mississippi Code of 1972, Sections 31-
    7-13 and 65-1-85, as amended; and the “Mississippi Standard Specifications for Road and Bridge Construction,”
    2004 edition.
                                                                                  9


Within 9 days of Hurricane Katrina, MDOT issued its first and most
expensive competitively bid award to T.L. Wallace for the I-10 Bridge at
Pascagoula (see Figure 3). This $5.2 million contract award provided for the
reconstruction of the eastbound bridge spans that were impassable after the
hurricane.         The     timely
completion of this repair was Figure 3: I-10 Bridge Repair at Pascagoula
significant to the entire Gulf
Coast region, as this bridge was
a vital part of the I-10 highway
system that provided a critical
east-west link needed to carry
food, water, medicine, clothing,
and emergency personnel to
devastated areas of Mississippi
and Louisiana. Just after the
hurricane, traffic could not
travel on the eastbound lanes
                                    Source: FHWA
because major segments of the
bridge’s spans had been shifted from its piers after being struck by two barges and
other smaller vessels. As a result of this damage, bridge traffic could use only the
westbound lanes on I-10 and motorists experienced delays of up to 1 hour because
of waiting times and slow traffic.

Although MDOT and FHWA Mississippi Division officials confirmed the
importance of completing the Pascagoula Bridge contract quickly to return the
Gulf Coast region to normal traffic flows, they had concerns about obtaining a
reasonable award price for this contract under post-Katrina emergency conditions.
Primarily, they were concerned about obtaining a sufficient number of bidders to
ensure fair and open competition. They were also concerned about immediately
facilitating shipments of emergency resources to devastated areas in Louisiana and
Mississippi.

To expedite the issuance of the Pascagoula Bridge contract, FHWA Division
Office and MDOT officials met with potential bidders and reviewed available
information concerning the project. The project proposal was issued with a 5-day
advertising period and included an incentive/disincentive clause of $100,000 per
day. The primary purpose of this clause was to provide an additional incentive to
complete the project earlier than the accelerated 31-day planned opening. The
contractor ultimately mobilized its resources and completed the work 10 days
early, allowing MDOT to reopen this major roadway to full traffic within 21 days.

Although the contract award price was almost 300 percent higher than historical or
pre-Katrina prices, the contract was competitively awarded and the other
                                                                                   10


responsive bid was about 80 percent higher than the contract award price. These
facts provide assurance that the contract award price was reasonable. The higher
post-Katrina price was primarily due to the compressed timeframe to complete the
work, difficult working conditions, and unknown risks assumed by the contractor
that could have prevented completion of the work in a timely manner.

To complete the Pascagoula Bridge project, the contractor was required to remove
several obstructions at the water level that had struck the bridge, reconstruct the
damaged bridge spans, and restore normal traffic to both the eastbound and
westbound bridge spans. The contractor also advised that the mobilization was
extremely costly due to its need to provide living accommodations for up to
50 workers, which included the rental of a community center, purchase and
shipment of trailers for sleeping quarters, on-site meals, and lighting and power
generation around the clock. The contractor also contended with a shortage of
construction materials and noted that its suppliers faced the risk of not finding
enough truck drivers because of competition from the Federal Emergency
Management Agency and other Government agencies, which were also providing
emergency services.

FHWA and MDOT officials believed the higher post-Katrina contract price award
was justified because a sizable portion of it related to potential labor shortages and
the inability to find scarce materials and equipment needed to complete the work.
They stated that the contractor’s price addressed the risk of delays due to work
requirements that were less than ideal. In particular, the work included the
removal of damaged tugs and barges and a submerged boat. The boat, which was
underneath a barge, was not discovered until after the contract was awarded.

MDOT used a more effective contract award process for the remaining five
competitively bid contracts. It was evident to Federal and State officials
involved with the competitive contract award process for the Pascagoula Bridge—
the first after Katrina—that a different approach was needed, particularly since the
contract award price was almost 300 percent higher than historical or pre-Katrina
prices. FHWA Division Office and MDOT officials agreed that it would take too
long to execute the traditional competitive bidding process and decided that a
more focused procurement strategy was needed to expedite the emergency repair
work. To expedite the procurement strategy, they agreed to use competitive
bidding requirements to significantly compress the award process to 8 days by:
• reducing the advertisement period from 21 days to 7 days,
• selecting the winning bid immediately after the advertisement period, and
• issuing the notice to proceed the day following bid selection.
                                                                                  11


MDOT used this compressed award process to award the remaining five
competitively bid emergency repair contracts—one for the lane widening of I-10
at a price of $2 million, three for debris removal and repair of the westbound lanes
of U.S. 90 at a price of $11.2 million, and one for $1.9 million to repair the
Henderson Point Bridge. Although the price of these competitively bid contracts
ranged from 20 percent to 65 percent above historical or pre-Katrina prices, these
higher prices were not as much as the first contract award. This situation was
aided by the fact that the remaining contracts were awarded up to 6 weeks after the
first award for repairing the Pascagoula Bridge and some of the Gulf Coast
region’s logistical problems had been addressed.

Five Negotiated, Cost-Plus Contract Awards Totaling $20.2 Million
Were Generally Consistent With Appropriate Federal and State
Procurement Requirements, but Two Resulted in Equipment Billing
Rates That Could Have Been Significantly Lower If MDOT Had Used a
Standard Alternative Pricing Methodology.
MDOT also awarded five negotiated, cost-plus contracts for emergency repairs on
U.S. 90. These awards generally adhered to Federal and State procurement
requirements. However, a subcontractor charged MDOT’s prime contractors rates
for equipment on two of the negotiated, cost-plus contracts that were higher than
what may be considered reasonable. This occurred because MDOT officials did
not include a standard provision for an alternative equipment pricing methodology
in these contracts, which would have allowed the use of a methodology developed
by the Army Corps of Engineers to establish reasonable equipment usage rates
when the industry-standard Blue Book rates were not available.

The negotiated, cost-plus contracts required
contractors to submit progress billings to       Figure 4: U.S. 90 Storm Drains
support labor, equipment, and other costs
that were used to clear debris and clean the
storm drains on U.S. 90 (see Figure 4). To
evaluate the contractors’ billings, MDOT’s
project offices maintained records on labor
and equipment usage, while its audit
department independently reviewed progress
bills by checking supporting invoices for the
reasonableness of labor rates and possible
duplicate charges between contracts. We
confirmed that MDOT’s audit activities
identified some improper labor and              Source: OIG
equipment charges that resulted in it making
adjustments to contractors’ billings.
                                                                                                                 12


Although MDOT’s review procedures were appropriate under the post-Katrina
emergency circumstances, we found that two cost-plus contracts included
$2.8 million in equipment billing rates. These MDOT contracts included a
standard provision to establish a maximum equipment rate, which required the
contractors to use a standard construction industry publication, called the Rental
Rate Blue Book (Blue Book), to determine reasonable prices for heavy equipment.
We calculated that about $1.7 million of the $2.8 million, or 61 percent, of these
equipment billings were accepted without MDOT first determining the
reasonableness of the billing rates.

Further, the contract did not include a customary or standard construction clause
that could have been used to determine billing rates when Blue Book rates were
not available. For example, a storm drain cleaning subcontractor (Gulf Coast
Hydro-Vac, L.L.C.) billed two prime contractors (Warren Paving, Inc. and Huey
Stockstill, Inc.) for storm drain cleaning equipment that its lower-tier
subcontractor (Garner Gulf Coast) provided (see Exhibit D). This equipment,
known as a Sewer Hog (see Figure 5), was billed at a rental rate of $935 per hour. 9
MDOT officials told us, and our audit work confirmed, that the Sewer Hog billing
rates were not listed in the Blue Book. Consequently, they could not establish the
appropriateness of these rates because the contract did not include standard
construction contract language commonly used for heavy equipment, which would
have provided an alternative computation method for establishing fair and
reasonable prices. This provision would have required MDOT to use a
methodology developed by the Army Corps of Engineers to establish reasonable
ownership and operating rates for specialized equipment. 10

To calculate ownership and operating costs for the Sewer Hog, we applied the
Army Corps of Engineers’ methodology and determined that the rental rate for this
specialized equipment would have been $163 per hour (rather than the $935 per
hour rate billed to MDOT by prime contractors Warren Paving, Inc. and
Huey Stockstill, Inc.). Our calculation included equipment purchase cost
information and an additional 15 percent for increased operating costs that was
allowed by MDOT’s negotiated, cost-plus contracts. In our opinion, a rental rate
of $935 per hour for the Sewer Hog was higher than what may be considered
reasonable, even under the catastrophic conditions that were created by Hurricane
Katrina.



9
     To compute the $935 hourly billing rate for the Sewer Hog (a patented, high-speed extraction system), Gulf Coast
     Hydro-Vac, L.L.C. added a 15 percent markup of $122.50 to the $812.50 billing rate received from Garner Gulf
     Coast and its affiliated companies, Garner Environmental Services, Inc. and Garner West.
10
      “Mississippi Standard Specifications for Road and Bridge Construction,” Section 109.04(d) allows the use of the
     Army Corps’ methodology to compute equipment ownership and operating costs.
                                                                                   13


                             Figure 5. Sewer Hog




          Source: OIG

In response to our inquiries, MDOT officials advised that after they reviewed
initial project billings, they had concerns about the rental rates associated with the
Sewer Hog. When MDOT’s engineers inquired about these rates, they learned
that a subcontractor would not continue to work unless the billing rates were
accepted. Further, no other companies can provide the Sewer Hog, which was
developed and patented by the subcontractor. Consequently, MDOT accepted the
equipment rental rates as billed without further analysis or negotiation.

We understand the emergency circumstances in which MDOT was working and
that contract provisions may have been inadvertently excluded. Such inadvertent
mistakes highlight the need for pre-negotiated contracts. If MDOT had included
the Army Corps of Engineers’ alternative pricing methodology in its negotiated,
cost-plus contracts, it would have had a basis for paying only $294,000 for the
Sewer Hog—about $1.4 million less than the contractors charged and MDOT
paid. The fact that MDOT’s contractors billed an equipment rental rate almost six
times greater than the rate we computed using the Army Corps of Engineers’
methodology also raises the question of whether FHWA had sufficient guidance or
regulations in place to ensure that equipment billing rates and other charges were
reasonable even given the dire post-Katrina conditions.

Two Negotiated (Sole-Sourced), Lump-Sum Contracts Totaling
$4.6 Million Were Awarded Without the Assurance of Fair and
Reasonable Prices—One Was Significantly Overpriced.
Although MDOT had effectively used competitive contracting early in the Katrina
crisis situation, it noncompetitively awarded two negotiated, lump-sum
contracts—a risky method for contracting—without preparing an independent
                                                                               14


cost/price analysis, analyzing the contractor cost details, or documenting the
negotiation in a memorandum. The completion of these key procurement actions
is essential to assure Federal and State officials that fair and reasonable prices
were obtained. It is not clear why MDOT senior officials chose the risky
negotiated method even though MDOT had used a competitive method
immediately after the devastation. Further, we found that the two lump-sum
contracts were negotiated and awarded by MDOT officials without the assurance
that the prices were fair and reasonable.

MDOT senior officials awarded a lump-sum contract to T.L. Wallace
Construction for bridge repairs on I-110, at the price of $2.487 million,
without assuring that the price was fair and reasonable. This contract was
awarded to shore up a single pier on the I-110 Figure 6. I-110 Bridge Repair
Bridge (see Figure 6). After the T.L. Wallace
contract was awarded and before the work
started, FHWA questioned the lump-sum
method used by MDOT and the price of the
work. FHWA Division officials told us that it
was MDOT’s initial intention to negotiate a
sole-sourced contract with T.L. Wallace.
FHWA agreed to this type of procurement
because T.L. Wallace had the workforce and
equipment that could be mobilized easily to
make needed repairs to the damaged pier at
the I-110 Bridge. FHWA officials also stated
that they expected and would have preferred
MDOT to award a cost-plus contract for the Source: FHWA
repair work at the I-110 Bridge.

If MDOT had used the cost-plus method, it would have been easier to verify the
contractor’s direct and indirect costs and mark-ups and question billings it
considered unreasonable. However, FHWA later learned that MDOT senior
officials had decided not to use the cost-plus method and opted to negotiate a
lump-sum contract for the I-110 bridge repairs. A negotiated, lump-sum contract
is extremely high risk and a less than desirable method of contracting. In fact,
under a negotiated, lump-sum contract, contractors are not required to disclose
actual costs.

After FHWA Division officials were informed of the $2.487 million anticipated
price, they decided to prepare an independent cost/price estimate. Without access
to actual cost information, the Division’s bridge engineer developed a cost/price
estimate of about $400,000, which consisted of a 30-day, 10-hour work schedule,
equipment, materials, overhead, and profit. In addition, the FHWA Division
                                                                                                            15


officials determined that a hurricane adjustment for higher costs in the Gulf Coast
area would be appropriate. As a result, FHWA estimated that costs could double
under the circumstances and advised MDOT that it would limit the Federal
Government’s participation to $800,000. MDOT immediately contested FHWA’s
$800,000 cost/price estimate.

Our analysis of the T.L. Wallace contract for a single pier repair on the I-110
Bridge supports FHWA’s determination that the $2.487 million award was
overpriced. Based on our analysis of on-site records that were maintained by a
State inspector who oversaw the project (such as the project diary, actual work
schedule, and other project records), we estimate that a reasonable price for the
repairs should have been about $583,000. This estimate includes $133,000 for
direct labor, materials and equipment and an estimate of $450,000 for other
variables, such as price escalation on materials and labor, mobilization, indirect
costs, and a reasonable profit. Our estimate is less than precise because we did not
have access to the contractor’s actual costs. Overall, given that FHWA limited its
participation to $800,000, MDOT paid at least $1.687 million more than necessary
to repair the I-110 Bridge.

We agree with FHWA’s $800,000 limit on its participation in the contract.
However, we have reservations about the use of such lump-sum contract awards
when award officials do not: (1) take appropriate actions to fully analyze the
contractor’s cost data or pricing details, (2) perform a thorough and independent
cost/price analysis, and (3) document the negotiations in a memorandum.

MDOT also negotiated a second lump-sum contract with ESCO Marine, Inc.
for the demolition of bascule leaves at the Bay St. Louis Bridge at the price of
$2.1 million, without initially assuring that the price was fair and reasonable.
The bridge’s bascule leaves were locked in a closed position, which restricted the
shipping lane. 11 Initially, FHWA Division Office officials agreed with the sole-
source selection of a contractor to do the work, but they neither agreed nor
disagreed with the price because it was their understanding that the price could be
adjusted later, if necessary. However, MDOT awarded the contract before
conducting an analysis to verify the cost estimate.

After the contract was awarded, both the FHWA Division Office and MDOT
prepared separate cost/price estimates. The Division Office’s bridge engineer
developed a cost estimate of $1.077 million by anticipating what it would cost to
perform the work under normal or non-emergency conditions. In subsequent
consultation with the Assistant Division Administrator, the two agreed that a
hurricane adjustment—similar to an adjustment of about 100 percent for the
11
     According to MDOT officials, they were directed by the U.S. Coast Guard to immediately open the lane. Coast
     Guard officials agreed with the need to open the shipping lane, but did not specify the timing.
                                                                                16


bridge repairs on I-110—was an appropriate factor to apply to the FHWA
engineer’s cost estimate because the demolition of the bascule leaves at the
Bay St. Louis Bridge was also performed within days after Hurricane Katrina
devastated the area. Subsequently, MDOT’s bridge consultant estimated the price
of the demolition of the bascule leaves to be $1.944 million. Although a less risky
negotiated contracting method such as a cost-plus contract should have been used
for this project, the post-award price estimates prepared by FHWA and MDOT
provided adequate evidence that the pricing was fair and reasonable on the ESCO
Marine, Inc. contract.

FHWA’s Emergency Relief Manual and Related Federal Regulations
Need to be Strengthened to Better Assist MDOT and Other States in
Awarding Emergency Repair Contracts.
We found that FHWA’s Manual and related Federal regulations provide only
limited guidance to states that need to award emergency repair highway
construction contracts. To ensure that the states have adequate guidance before
entering into emergency repair contracts, the Manual needs to be strengthened in
several key ways. First, the Manual needs to prioritize the use of each contracting
method from the lowest risk (most preferred) to extremely high-risk (least
preferred) as follows—competitively bid; negotiated, cost-plus; and negotiated,
lump-sum. Second, the Manual needs to identify the risks associated with each
method and develop essential criteria that state officials should consider before
making emergency repair award decisions. Third, the Manual needs to provide
guidance using pre-negotiated emergency contracts that would allow state
transportation agencies to issue task orders immediately in response to natural
disasters and other unexpected occurrences.

When states are faced with emergency repairs, the Manual does not specifically
prioritize the various methods for awarding emergency repair contracts. Although
the Manual encourages states to use competitive bids for emergency repairs, it
does not provide specific steps about how to expedite the competitive bidding
process during emergencies. Responding to Hurricane Katrina, MDOT and
FHWA Division Office officials appropriately used their collective experiences to
successfully prepare abbreviated plans and shortened advertisement periods in
awarding six competitively bid emergency repair contracts. Including guidance in
the Manual to better define these approaches would help others to expedite
competitive contract awards.

If competition can not be reasonably developed, the Manual allows the use of
alternative (non-competitive) contracting methods—including negotiated
contracts—but it does not adequately address how the states are to award and
administer these types of contracts. Principally, the Manual and related Federal
regulations do not advise states to first consider negotiated, cost-plus contracts,
                                                                                  17


which require contractors to demonstrate actual costs with an added reasonable
profit and include contract provisions that provide alternative methods for
computing equipment usage rates, when the Blue Book or other equipment rates
are not available. Further, the Manual and related Federal regulations do not state
that a cost/price analysis should be prepared before the award of negotiated
contracts to assure that prices are fair and reasonable.

Moreover, the Manual and related Federal regulations do not advise states of the
procurement procedures that should be followed in order for FHWA to consider
negotiated contracts eligible for Federal reimbursements. In the aftermath of
Katrina, two of MDOT’s five negotiated, cost-plus contract awards for emergency
repairs had equipment usage charges that were higher than what may be
considered reasonable. Consequently, the Manual and related Federal regulations
need to include language to ensure that equipment billing rates and other charges
were reasonable even given the dire post-Katrina conditions. Enhancing the
Manual to address how states can manage these situations would help stretch
scarce Federal-aid highway funds.

Most importantly, if competition can not be used for emergency contracts, the
Manual does not advise states to limit the use of high-risk negotiated, lump-sum
contracts and first consider negotiated cost-plus contract awards. The Manual also
does not specifically address when states should use negotiated, lump-sum
emergency repair contracts, which are not based on the actual cost of the work that
must be completed. Further, the Manual does not discuss the critical assessment
steps that should be made by State officials before the award of lump-sum
agreements. Moreover, the Manual and related Federal regulations do not
discourage the use of risky negotiated, lump-sum contracts, such as MDOT’s
$2.487 million lump-sum contract with T.L. Wallace to shore up a single pier on
the I-110 Bridge. FHWA needs to ensure that the Manual and related Federal
regulations more completely address this type of risky contracting scenario. The
key lessons learned in the aftermath of Hurricane Katrina will require FHWA to
take immediate actions to better prepare states to respond to future hurricanes and
other natural disasters.

In addition, the Manual needs to be strengthened to adequately address the
responsibility of FHWA’s Division Offices during emergency circumstances. As
written, the Manual does not clearly define the role of the Division Offices or
describe the steps they will take to assess the reasonableness of negotiated contract
prices or review the supporting documentation to justify Federal reimbursements
for emergency repairs. Furthermore, the Manual does not describe how FHWA
will minimize its participation in negotiated contracts if prices are not deemed
reasonable.
                                                                               18


Finally, the Manual does not address expanding the oversight responsibilities of
the Division Offices by directing them to encourage states to develop and use pre-
negotiated emergency contracts. These contracts would allow state transportation
agencies to issue emergency task orders immediately in response to natural
disasters and other unexpected occurrences. Such planning efforts would give
states ready access to multiple contractors and pre-established pricing methods
that could be evaluated before the start of emergency work. Pre-negotiated
emergency contracts should also result in more cost-effective contracts and dollar
savings.

RECOMMENDATIONS
We recommend that FHWA:

1. Determine whether there is any legal recourse for recovering a potential
   $1.4 million in equipment charges for the Sewer Hog and limit Federal
   participation to the amount FHWA determines to be fair and reasonable under
   the emergency circumstances that existed after Hurricane Katrina.

2. Revise and strengthen FHWA’s Emergency Relief Manual and related Federal
   regulations to better address how states should award emergency repair
   contracts by including language that:

   a. Prioritizes emergency repair contracts to strongly encourage states to first
      use expedited, competitively bid awards; use negotiated, cost-plus contract
      awards when competition is not feasible; and use high-risk lump-sum
      contract awards only under extreme circumstances.

   b. Advises states to conduct a cost/price analysis before the award of
      negotiated contracts to assure that prices are fair and reasonable.

   c. Provides alternative methods for computing equipment usage rates in
      negotiated, cost-plus contracts, when the Rental Rate Blue Book or other
      equipment rates are not available.

   d. Advises states on the procurement procedures they should use to be eligible
      for Federal reimbursements when awarding negotiated contracts and on
      how FHWA reserves the right not to participate or to minimize its
      participation in negotiated contracts when prices are not deemed
      reasonable.

   e. Encourages states to work with their Division Offices to develop pre-
      established, emergency repair contracts with multiple contractors in an
                                                                                   19


       effort to provide quick action and ensure that contract prices will be fair and
       reasonable.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided a draft of this report to FHWA on July 21, 2006. On August 3, we
met with FHWA officials to discuss their verbal and informal written comments.
Subsequently, we incorporated those comments into this report. In its formal
response memorandum dated August 29, 2006, FHWA concurred with our audit
report results and recommendations and agreed to take corrective actions to
implement both recommendations.         FHWA’s complete comments on the
recommendations and other general comments on the entire report are presented in
the Appendix to this final report.

Recommendation 1. FHWA concurred with our recommendation to determine
whether there is any legal recourse for recovering a potential $1.4 million in
equipment charges for the Sewer Hog and limit Federal participation to the
amount FHWA determines to be fair and reasonable under Katrina’s emergency
circumstances. FHWA plans to work with MDOT to ascertain the specific
rationale behind the use and pricing of the Sewer Hog. Based on this information,
FHWA will assess the reasonableness of the charges billed to MDOT in light of
the services provided, any unique requirements, and the circumstances associated
with responding immediately after Hurricane Katrina. Contingent on this
assessment, FHWA will determine whether the fees paid should be considered an
overcharge and whether recoveries can and should be pursued. FHWA’s target
completion date for this action is December 31, 2006.

We consider FHWA’s proposed actions responsive to this recommendation. As
requested, we will share with FHWA our calculations related to ownership and
operating costs for the Sewer Hog.

Recommendation 2. FHWA concurred with our recommendation to revise and
strengthen FHWA’s Emergency Relief Manual and related Federal regulations by:
(1) prioritizing the specific types of emergency repair contracts, (2) advising states
to conduct cost/price analysis before awarding negotiated contracts, (3) providing
alternative methods for computing equipment usage rates, (4) advising states on
the procurement procedures for Federal reimbursements and FHWA’s right to
minimize its participation, and (5) encouraging pre-established emergency repair
contracts.

FHWA advised that it has already begun a review of the Manual to identify any
required updates. FHWA also stated that it will carefully consider each OIG
                                                                                20


recommendation and incorporate any that it deems appropriate into the Manual
and related Federal regulations. FHWA’s target completion date for updating the
Manual is December 31, 2006.

We consider FHWA’s proposed actions responsive to this recommendation.
However, we request that FHWA inform the OIG when and how it implements
each recommendation regarding the Manual and related Federal regulations. If
FHWA determines that any of the OIG recommendations should not be included
in its Manual and related Federal regulations, we request that FHWA formally
advise the OIG of the rationale for such a determination.

ACTIONS REQUIRED
The Department’s proposed actions to address recommendation 1 in this final
report are responsive. However, we are requesting to be informed when and how
FHWA implements recommendation 2. In accordance with Department of
Transportation Order 8000.1C, we request that FHWA provide a schedule for
updating its Manual and related Federal regulations within 30 calendar days of this
final report.

We appreciate the courtesies and cooperation of FHWA and other Department
representatives during this audit. We also appreciate the courtesies and
cooperation extended to our staff by FHWA’s Mississippi Division Office and the
Mississippi Department of Transportation during our site visits and subsequent
data requests and communications since our site visits. If you have any questions
regarding this report, please call me at (202) 366-5630 or Brenda R. James,
Program Director, at (202) 366-0202.
                                                                                21



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to assure that MDOT’s emergency repair contract award
processes were consistent with applicable Federal and State procurement
requirements, and that prices received were fair and reasonable under the
emergency conditions that resulted from Hurricane Katrina. To fully address these
objectives, we reviewed the procedures FHWA used to oversee the emergency
repair contracts in Mississippi. We interviewed officials in FHWA Headquarters,
FHWA’s Mississippi Division Office, and MDOT.

Using the list of emergency repair contracts that MDOT awarded, valued at
$47 million, we selected contracts to review.          Our sample included six
competitively bid and seven negotiated construction contracts that MDOT
reported at more than $1 million each, for a total of $45.1 million. We reviewed
supporting source documentation, such as contract agreements, cost and price
information, bid and negotiation documents, contractor submissions, and project
records.

To evaluate the contract oversight process, we reviewed the FHWA Emergency
Relief Manual and related sections of the Stewardship Agreement between the
FHWA Mississippi Division Office and MDOT. We identified the process used
by the Division Office to review and approve emergency repair requests and
contracts. We also identified the State of Mississippi’s procedures for submitting
its project requests to the Division Office. We determined FHWA officials’
involvement in the review of the contracting methods used by the State—
competitive and negotiated contacts, including both lump-sum and cost-type
agreements.

To evaluate the methods used by MDOT to obtain emergency repair work, we
identified the State’s contract statutes, procurement policies and procedures, and
determined whether the agency’s processes were consistent with this guidance.
We established whether MDOT obtained contactor bids or cost estimates;
prepared independent cost estimates; conducted bid evaluations or contract
negotiations; and monitored the delivery of contract repair services, including the
review of contractor billings.

To determine whether FHWA’s oversight resulted in the State obtaining fair and
reasonable prices, we identified the strengths and weaknesses of the procurement
controls related to MDOT’s centrally awarded emergency repair contracts. We
also prepared an independent cost/price analysis to establish the fairness and
reasonableness of the I-110 bridge repair lump-sum contract, based on data
available in MDOT and FHWA records.


Exhibit A. Objectives, Scope, and Methodology
                                                                                                                    22



To determine what rental rates should have been billed to MDOT for specialized,
high-powered storm drain cleaning equipment, we analyzed information that was
not available in project files at MDOT and FHWA. We used the hourly rate
methodology developed by the Army Corps of Engineers to establish the fairness
and reasonableness of the equipment rental rates billed to MDOT. To compute the
hourly rate, we used the equipment purchase cost information provided by Garner
Environmental Services, Inc. We then applied the Army Corps of Engineers’
methodology that resulted in a $163 combined hourly ownership and operating
rate for the Sewer Hog. 12 This rate also included an additional 15 percent for
increased operating costs that was allowed by MDOT’s negotiated, cost-plus
contracts.

We conducted this performance audit from December 2005 to June 2006 in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States and we performed such tests as
we considered necessary to detect fraud.




12
     The resulting $163 per hour does not include field overhead and profit, which are not usually applied directly to
     equipment. On cost-plus contracts, field overhead and profit are generally negotiated separately and applied to the
     overall contract.


Exhibit A. Objectives, Scope, and Methodology
                                                        23



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Federal Highway Administration
Office of Program Administration
Office of Chief Counsel
FHWA Mississippi Division Office

Other Federal Agencies
U.S. Army Corps of Engineers
U.S. Coast Guard
 Eighth Coast Guard District (New Orleans, Louisiana)
 Marine Safety Office (Mobile, Alabama)

Mississippi State Agencies
Department of Transportation
 Gulfport Project Office
 Ocean Springs Project Office
Office of Attorney General

Other State Agencies
Florida Department of Transportation
Massachusetts Highway Department
Massachusetts Water Resource Authority

Contractors
Garner Environmental Services, Inc.
Garner Gulf Coast
T.L. Wallace Construction, Inc.
URS Corporation
Warren Paving, Inc.




Exhibit B. Activities Visited or Contacted
                                                                                                                           24




             EXHIBIT C. MDOT HURRICANE KATRINA EMERGENCY REPAIR
             CONTRACTS OVER $1 MILLION

                                                                                              Contract
       Contractor                        Project Name                                         Amount               Contract Type
T.L. Wallace Construction,               I-10 Bridge Repair at Pascagoula                    $5,153,796a           Competitively
Inc.                                                                                                               Bid
Warren Paving, Inc.                      I-10 Lane Widening                                  $1,991,647a           Competitively
                                                                                                                   Bid
Huey Stockstill, Inc.                    U.S. 90 Debris Cleanup and                           $2,648,519           Competitively
                                         Repair (Westbound)                                                        Bid
Warren Paving, Inc.                      U.S. 90 Debris Cleanup and                           $3,720,718           Competitively
                                         Repair (Westbound)                                                        Bid
Mallette Brothers                        U.S. 90 Debris Cleanup and                           $4,946,767           Competitively
Construction Company, Inc.               Repair (Westbound)                                                        Bid
Hill Brothers Construction               U.S. 90 Bridge Repair at                             $1,945,726           Competitively
Company                                  Henderson Point                                                           Bid
T.L. Wallace Construction,               I-110 Bridge Repair                                  $2,487,000           Negotiated,
Inc.                                                                                                               Lump-Sum
ESCO Marine, Inc.                        Bay St. Louis Bridge Removal of                      $2,100,000           Negotiated,
                                         Bascule Leaves                                                            Lump-Sum
Huey Stockstill, Inc.                    U.S. 90 Debris Cleanup and                          $7,000,000b           Negotiated,
                                         Repair (Eastbound)                                                        Cost-Plus
Warren Paving, Inc.                      U.S. 90 Debris Cleanup and                          $7,000,000b           Negotiated,
                                         Repair (Eastbound)                                                        Cost-Plus
Mallette Brothers                        U.S. 90 Debris Cleanup and                          $4,000,000b           Negotiated,
Construction Company, Inc.               Repair (Eastbound)                                                        Cost-Plus
Tony Parnell Construction,               Demolish and Cleanup of Casino                       $1,200,000           Negotiated,
Inc.                                     Barge on U.S. 90                                                          Cost-Plus
Volkert and Associates, Inc.             Bridge Inspections and                               $1,000,000           Negotiated,
(Consultant)                             Assessments                                                               Cost-Plus
Total                                                                                        $45,194,173
      a
       These amounts do not include the incentive/disincentive contract clause amounts that MDOT used to encourage early
        completion or penalize late work.
      b
        Each negotiated, cost-plus contract had a ceiling that allowed the contractor to bill MDOT up to $10 million.




             Exhibit C. MDOT Hurricane Katrina Emergency Repair Contracts
             Over $1 Million
                                                                                25




EXHIBIT D. MDOT’S CONTRACTORS THAT USED THE SEWER
HOG FOR EMERGENCY REPAIRS ON U.S. 90



                                      MDOT

    Huey Stockstill, Inc.                                 Warren Paving, Inc.


Gulf Coast Hydro-Vac, L.L.C.


                                Garner Gulf Coast
                        Garner Environmental Services, Inc.
                                  Garner West



Source: OIG




Exhibit D. MDOT’s Contractors That Used the Sew er Hog for
Emergency Repairs on U.S. 90
                                                                    26



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                                  Title

  Kurt W. Hyde                          Assistant Inspector General for
                                        Surface and Maritime Programs

  Brenda R. James                       Program Director

  Peter F. Babachicos                   Project Manager

  William R. Lovett                     Senior Auditor

  Marvin E. Tuxhorn                     Senior Auditor

  Brett Kramer                          Analyst

  Seth Kaufman                          Associate Counsel

  Amy Berks                             Associate Counsel

  Clayton Boyce                         Communications Advisor

  Harriet E. Lambert                    Writer-Editor




Exhibit E. Major Contributors to This Report
                                27



APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                28




Appendix. Management Comments
